I:

No. 20-6413

M % fhtpran* (Eourt of tiff Ittffrd ifta&o
Maxine Shepard, et al, Petitioner, pro se
v.
Department of Veterans Affairs, et al

On Petition for Writ of Certiorari from the
United States Court of Appeals
for the Tenth Circuit
19-1313, Shepard v. DOYA, et al
Dist/Ag. Docket^ 1:18-CV-01098-PAB_KMT

PETITION FOR REHEARING

e Shepard,
Petitioner, j? ro Se
PO.
DeWitt, MI 48820
ms2863386@ermail.com

1

3tt % J&jpron* Court of % Httttrt* #tatw
No. 20-6413
Maxine Shepard, et al
v.

Department of Veterans Affairs, et al
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
PETITION FOR REHEARING
Pursuant to Rule 44.2, and based on intervening
circumstances of a substantial or controlbng effect,
Petitioner Maxine Shepard respectfully petitions for rehear
-ing of the Court’s order on 3/8/2021 denying certiorari in
this case. This petition for rehearing is filed within 25 days
of this Court’s decision in this case. It is presented in good
faith and not for delay.
1. This case involves denial of a Title 38 U.S.C. 1151 Tort
Claim for medical malpractice against the Department of
Veterans Affairs for unlawful implantation of microchips,
unlawful human experimentation as well as other acts of
negligence and a denial by the Tenth District of Petitioners’
request for an extension of time to cure the defect in service
under Fed. R. Civ. Proc. 4 G).

2

GROUNDS FOR GRANTING PETITION
1. Since denying certiorari, the U.S. House of
Representatives has passed the George Floyd Justice in
Policing Act 3/4/2021. On 3/8/2021, the House introduced
legislation that reauthorizes the Violence Against Women
Act, a landmark bill that was championed by President
Biden in 2018. Among its many provision, the George Floyd
Justice in Policing Act, would eliminate qualified immunity
for all local, state, and federal law enforcement officers.
Under qualified immunity, government officials escape any
legal liability for civil rights violations unless the victim
can show that their rights were “clearly established” at the
time. This is significant due to the Fourth Amendment
violations committed against the Petitioner by police, FBI
and others acting under the color of law to violate her civil
rights by saying they had a right to connect to her while
she slept in her bed allegedly under authority of the FOIA
Act. See Kelsay v. Ernst, on Petition from the United
States Court of Appeals for the Eighth Circuit (19-682) is
another case awaiting the change in law for qualified
immunity. See also Bivens v. Six Unknown Fed. Narcotics
Agents, 403 US 388 (1971), the court held that Webster
Bivens could sue the federal narcotics agents. If a citizen
has no rights within their own homes, within their own
bodies, within their own minds, why continue to call this a
democratic society?
2. The VAWA, if passed would close the law enforcement
consent loophole. The bill includes language that states^
“no woman could give ‘consent’ to sex when they are in the
police custody.” In Petitioners’ case, while unknowingly
being experimented on remotely.. This is pertinent to
Petitioners’ case due to the sexual experimentation on her
by federal contractors, agents and/or the Fourth
Amendment violations by the police who believe they may

3

have probable cause to search her body cavity using a FOIA
as an excuse. Ms. Shepard would like to reference the body
cam footage of a black woman which shows her body cavity
being searched on the side of the highway by Harris
County Sheriff officials in 2015.1 For purposes of this
argument custody could mean when they connect remotely
to her neck or body via the implants. Passage of the VAMA
would make sexual acts forbidden by police with someone
in their custody forbidden. See Kelly Brodie, et al., v. Jerry
R. Foxhaven et al, Case l '20-cv00004 CRW-SBJ. In Brodie
v. Foxhaven, disabled and physically impaired residents of
a medical facility in Iowa were sued for performing
unlawful sexual research on the residents. Remote attacks
that violate a person’s body go beyond V2K and RF attacks.
They have advanced or regressed morally to include ways
to cause arousal by GPS devices usually for the delight of
the one controlling the device, not the one being awakened
in the middle of the night and being subjected to them.
Petitioner has experienced several such unwanted events.
Since denying certiorari, events have also occurred that
present a clear and present danger for the Petitioner and
her family.
INFORMED CONSENT
3. The Common Law Rule.2 The current U.S. system of
protection for human research subjects is heavily
influenced by the Belmont Report, written in 1979 by the
National Commission for the Protection of Human Subjects
of Biomedical and Behavioral Research. The Belmont
Report outlines the basic ethical principles in research
1
2

https://www.voutube.com/watch?v=SZhUhmE5ihQ.
Information on Federal Policy for the Protection of Human
Research Subjects obtained from:
https;//www.hhs.gov/ohrp/regulations-and-policy/regulations/commo
n-rule/index.html.

4
involving human subjects. In 1981, with this report as
foundational background, HHS and the Food and Drug
Administration revised, and made as compatible as
possible under their respective statutory authorities, their
existing human subjects regulations.
4. The Federal Policy for the Protection of Human Subjects
or the “Common Rule” was published in 1991 and codified
in separate regulations by 15 Federal departments and
agencies. The HHS regulations, 45 CFR 46, include four
subparts: subpart A, also known as the Federal Policy or
the “Common Rule”; subpart B, additional protections for
pregnant women, human fetuses, and neonates; subpart C,
additional protections for prisoners; and subpart D,
additional protections for children. Each agency includes in
its chapter of the Code of Federal Regulations [CFR]
section numbers and language that are identical to those of
the HHS codification at 45 CFR part 46, subpart A. For all
participating departments and agencies the Common Rule
outlines the basic provisions for IRBs, informed consent,
and Assurances of Compliance.3
5. There are 19 agencies involved (including HHS) that
follow the Pre-2018 Requirements Of these, 15 agencies are
official signatories with the rule codified in their own Code
of Federal Regulations (CFR) sections. The Department of
Veterans Affairs as well as the Department of Defense are
included in those agencies. The underlying principle of the
Common Rule is that all human experimentation should be
done with informed consent of the human research subject.
The Department of Veterans Affairs Common Rule
guidelines are regulated under 38 CFR 16 and 32 CFR Part
219 for the Department of Defense.
6. On January 4, 2021, the Department of Veterans Affairs
amended its handbook on Informed Consent. The
3 Information on the VA’s Office of Research Oversigh t can be obtained
accessed at: http s://www.va.gov/oro/.

5
amendment shows that the VA know and understand that
informed consent is required by law. The reason for the
change is to clarify and update the VHA national policy on
informed consent in VHA Handbook 1200.5(l) and
Handbook 1058.03 for VHA policy on informed consent for
research. “The VA promises in this amended handbook that
the update will be in alignment with 38 Code of Federal
Regulations (C.F.R.)§ 17.32, Informed Consent and Advance
Directives.” The VA did not adhere to or comply with this
policy in 2005 when Ms. Shepard was unlawfully
implanted and the VA continues to deny Ms. Shepard her
right to know what took place during the surgery, how to
get the implants removed, or explain why they cannot turn
off the transceiver/receivers that they placed in her ears as
well as any of the other implants which are still emitting a
wi-fi and/or radio signal that can be detected by HAMM
radio, CB and other equipment available on the market
today which now allow people to connect to her via their
cell phones, Xbox or Playstation or internet. The VA’s gross
negligence and liability here is clear. Be it not for the
actions of the doctor who performed the surgery at the VA
medical facility none of this would be happening.
7. Ms. Shepard’s requests for information pertinent to the
implants are always met with denial. In a letter dated
January 13, 2021, in response to a request for information
about the implants, the U.S. Department of Justice stated
that they were not required to respond. A copy of the letter
is attached at Appendix I. Similarly, a request was sent to
the Department of Veterans Affairs who administratively
closed my request under the Freedom of Information Act. A
copy of this denial is attached as Appendix II. The VA has
denied Ms. Shepard’s FOIA request on several other
occasions. Id at 1.
CLEAR AND PRESENT DANGER

6
8. The right of self-determination which underlies the
doctrine of informed consent also encompasses the right to
refuse medical care. A competent adult is generally allowed
to reject medical care even if death or serious harm may
occur. Had she been completely informed, Ms. Shepard
would have definitely not allowed implants in her brain,
near her heart, inside her vagina, her lower back, arms,
legs, feet and hands or her eyes. Had she also been so
informed about the brain research initiative4 she would
have refused participation. She was not given the choice to
self-determine her own medical care or her participation in
a dangerous experimental surgery or research. Research
which members of the FBI and other agencies decided that
Ms. Shepard as an African-American woman needed to
teach her a lesson or changer her behavior. Their
unconsentual experiments on her have lasted almost 16
years which amounts to Torture according to 18 U.S.C.
2340. One of the central points of this case and the reason
why the writ should be granted is that the powers of the
U.S. Department of Veterans Affairs, the DOD, the House,
Senate, Presidency and all the federal contractors that
they have employed in Texas, Colorado and now Michigan
to carry out their goals have greatly subverted an
oppressive, vindictive, diabolical and life threatening
control over her. They have even begun outsourcing her at
night for the media, her neighbors, the general public,
medical students, research facilities in the US, as well as
4

Internet articles on the brain initiative accessed on 3/17/2021:
l.https://obamawhitehouse.archives.gov/the-press-office/201S/09/15/
executive-order-using-behavioral-science-insights-better-serve-american.
2. https://obamawhitehouse.anchives.gov/BRAIN.
3. https://offgridsurvival.com/executiveordetbehavioralexperiments/.

7

internationally who are allowed to connect to her or ‘listen
in” to her bio-rhythms while she sleeps. Currently they
have learned to reverse the camera in their cell phones so
that Ms. Shepard can actually see them making fun of her.
The thin skull doctrine applies here because the back of her
head has been connected to remotely so many times that
she wakes up in a cold sweat, trembling at the base of her
skull and is often nauseated. Members of the GOP5
legislative branch have also begun inciting members of
their party to perform acts of retaliation against her for
posts on her Facebook blog. One such attack almost
snapped her neck in two. This has created a clear and
present danger for the Petitioner as well as her child who
depends on her for support.
9. In applying the clear and present danger test in Schneck
v. United States, 249 US 47(1919^ Justice Oliver Wendell
Holmes Jr. observed: “The question in every case is
whether the words used are used in such circumstances
and are of such a nature as to create a clear and present
danger that they will bring about the substantive evils that
Congress has a right to prevent.” The speech being referred
to here is that of a senator from Iowa and members of the
GOP who have a great deal of influence over members of
their party and have convinced them that Ms. Shepard is
their enemy. The incitement of violence against her or
anyone else that disagrees with them is a continuation of
the tactics of the former president and can be clearly
evidenced in the recent behavior of Sen. Mitch McConnell
who has vowed that the Senate would become “a scorched
earth’6 if the filibuster is removed, basically halting the
democratic machine. See also, Gritlow v. New York (1925),
5

During a prolonged two*dayV2K/RF attack which began on 3/13/21,
the anniversary of the death of Ms. Breonna Taylor, a senator from
Iowa was named as the overseer of the event which is ongoing by
her neighbors who live directly across the street from Petitioner.

8
in which the court reviewed the bad tendency test to
measure the tendency to use words for wrong. Something
that members of the GOP have done quite frequently.
BILL OF ATTAINDER
10. The control over a person by a government official or
the police doesn’t need to be long in duration and the scope
of the control doesn’t need to be large, an arm or leg for
instance. What matters is the effect of that control. The
effects of the governments 16 years of involuntary
servitude in research projects, social experiments, the
provoking of public scorn and ridicule has created a
deprivation of human, civil and constitutional rights not
before seen in this nation or before this Court and which
amounts to Torture according to 18 U.S.C 2340. A few
years ago Ms. Shepard purchased a kevlar helmet on Ebay.
When she purchased the helmet it was free of holes or any
other defects. A few weeks ago she noticed a small hole on
the left side of the helmet where it appears to have been
penetrated by a very powerful laser. This image is herein
attached as Appendix III. Ms. Shepard has been used
recently by unknown researchers, medical professionals
and/or scientists to perform remote surgical procedures on
her brain that have left her temporarily paralyzed. The
GOP has probably launched their own ‘initiative’ for which
she has been unwittingly subjected to which is nothing
more than a bill of attainder. During the attack on 3/13/21
which was overseen by a senator from Iowa. She heard
those involved manipulating words to fraudulently appear
as if they came from me giving them consent. I heard one of
them say, “I consent!” She had given them no such consent.
They said the words, not the Petitioner. It seemed as
though they were recording the words into an electronic
device. They have shared the technology with Russia/KGB.
6 https;//www.nationa]review.com/news/mcconnell-warns'democrats'
of-scorched'earth-senate-if-filibusteris'removed/.

9
This technology now poses a national security risk not only
to the Petitioner, but to all the American people. They have
used the bill of attainder to spew words of hatred to her,
stop her from thinking freely, tell her how ugly they think
she is, how fat she is, that she is a knowit-all or otherwise
degrade her as a woman of color. None of these things
benefit the greater good of humanity, but do more to serve a
misogynistic and racist agenda.
11. The decision of the U.S. District Court in Colorado to
not allow an extension of time to cure defect in service does
not comply with the decisions of other courts. Petitioner is
not asking the Court to change the law to allow FedEx for
service of process. She is simply asking the Court to affirm
that the lower courts erred in not allowing her an extension
of time to cure a defect in service in accordance with Fed.
R.Civ.Proc. 4(i), reverse and remand with instructions for
them to set a settlement conference in accordance with
Rule 121, Section 1-17 under Rule 16.2(i) as set forth by the
Colorado Supreme Court.
CONCLUSION
12. Ms. Shepard has proven to this Court that she can
comply with a court order and serve the defendants via US
Postal Service rather than FedEx as proven by the record
in this case. See note on docket dated February 1, 2021:
“Petitioner complied with order dated January 19, 2021.”
13, The Court should grant the Petition for Rehearing and
grant the Writ of Certiorari in this case.

DeWitt, MI 48820

No. 20-6413

Jn %

(Emirt of tip Hmfrfc #fatw

Maxine Shepard, et al, Petitioner, pro se
v.
Department of Veterans Affairs, et al

On Petition for Writ of Certiorari from the
United States Court of Appeals
for the Tenth Circuit
19-1313, Shepard v. DOVA, et al
Dist/Ag. Docket^ 1:18-CV-01098-PAB_KMT
RULE 44 CERTIFICATE
As required by Supreme Court Rule 44.2,1 certify that the Petition for
Rehearing is limited to “intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented,”
and that the Petition is presented in good faith and not for delay.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 24, 2021.

Maxine Shepard,
Petitioner, Pro Se
P.O. Box 75
DeWitt, MI 48820
ms2863386@gmail.com

Additional material
from this filing is
available in the
Clerk's Office.

